CAPITAL CASE
EXECUTION SCHEDULED – JANUARY 12, 2021
No. 20A__
IN THE

Supreme Court of the United States
____________________

LISA MARIE MONTGOMERY
Petitioner,
v.
JEFFREY ROSEN, ACTING ATTORNEY GENERAL
OF THE UNITED STATES IN HIS OFFICIAL CAPACITY, ET AL.,
Respondents.
____________________
APPLICATION FOR STAY OF EXECUTION
____________________
To the Honorable John Roberts, Chief Justice of the Supreme Court of the United
States and Circuit Justice for the District of Columbia:
Lisa Montgomery is scheduled to be executed on January 12, 2021. Mrs.
Montgomery respectfully requests a stay of her execution pending this Court’s
disposition of her petition for writ of certiorari.
As set forth below and in the petition for certiorari, the district court stayed
Mrs. Montgomery’s original execution date, December 8, 2020, to permit her counsel
sufficient time to prepare a clemency petition after they contracted COVID-19 while
visiting her in prison.

The Director of the Bureau of Prisons (the “Director”)

designated a new execution date while the court’s stay was in place. That mid-stay
designation contravened 28 C.F.R. § 26.3(a)(1): “If the date designated for execution
passes by reason of a stay of execution,” then the Director “shall” designate a new
execution date “when the stay is lifted,” id. (emphasis added), not while the stay is

in effect. The district court therefore properly vacated the improper designation
under the Administrative Procedure Act (“APA”).
Within days of that ruling, a panel of the U.S. Court of Appeals for the D.C.
Circuit took the extraordinary step of summarily reversing the district court, in a
per curiam order and without full briefing on the merits. The panel’s order is not
just the first appellate decision to address the meaning of § 26.3(a)(1). It is also the
first and only judicial authority of which we are aware to authorize the rescheduling
of an execution during a stay of the execution.
The D.C. Circuit’s decision presents two important questions on which this
Court is likely to grant certiorari and reverse.
First, whether the Director may designate a new execution date during the
pendency of a stay is a question of first impression on which the panel clearly erred.
Every interpretive signal, from the regulation’s text to its structure and purpose,
confirms that the Director must forbear scheduling an execution while a stay is
pending. The D.C. Circuit’s conclusion contradicts that regulation, the background
principle it respects—that a court’s stay of execution temporarily suspends the
Government’s authority to designate a new execution date—and this Court’s
precedent. See Sup. Ct. R. 10(c).
Second, whether a federal court of appeals may summarily reverse a district
court order on a question of first impression, on a motion and without full briefing,
is an important and now unsettled question of federal appellate procedure. The
panel’s decision to summarily vacate the district court here “so far departed from

2

the accepted and usual course of judicial proceedings” that it “call[s] for [the]
exercise” of the Supreme Court’s “supervisory power.” Sup. Ct. R. 10(a).
The Court should grant a stay of Mrs. Montgomery’s execution so it can
consider the important questions raised by her petition for certiorari.
JURISDICTION
The court of appeals entered judgment on January 1, 2021.

Mrs.

Montgomery’s petition for a writ of certiorari was filed on January 9, 2021. The
Government set Mrs. Montgomery’s execution for January 12, 2021. Pursuant to
Supreme Court Rule 23.3, Mrs. Montgomery sought a stay of execution from the
court of appeals, which denied Mrs. Montgomery’s request.

This Court has

jurisdiction to entertain Mrs. Montgomery’s petition for certiorari and application
for a stay of execution under 28 U.S.C. § 1651(a).
BACKGROUND
Mrs. Montgomery was sentenced to death in April 2008. See United States v.
Montgomery, 635 F.3d 1074, 1079 (8th Cir. 2011).
On October 16, 2020, the Government scheduled Mrs. Montgomery’s
execution for December 8 pursuant to 28 C.F.R. § 26.3. After visiting their client,
Mrs. Montgomery’s capital attorneys contracted COVID-19, rendering them
incapable of filing her clemency petition. On November 12, Mrs. Montgomery filed
a complaint asserting claims stemming from her lawyers’ inability to assist her in
the clemency process. Finding merit in the claims, the district court issued a stay of
execution lasting “until December 31, 2020.” Minute Order I, Montgomery v. Barr

3

et al., No. 1:20-cv-03261 (D.D.C. Nov. 25, 2020); see Mem. Op., Montgomery v. Barr
et al., No. 1:20-cv-03261 (D.D.C. Nov. 19, 2020). The Government did not appeal the
court’s stay.
While the stay remained in effect, on November 23, the Government
rescheduled Mrs. Montgomery’s execution for January 12, 2021. In response, Mrs.
Montgomery promptly filed a supplemental complaint asserting claims under the
APA. She alleged, inter alia, that in rescheduling her execution, the Government
violated federal regulations providing that “[i]f the date designated for execution
passes by reason of a stay of execution,” then the Director “shall” designate a new
execution date “when the stay is lifted.” 28 C.F.R. § 26.3(a)(1). Mrs. Montgomery
moved for partial summary judgment and sought vacatur of her January 12
execution date.
After full briefing and oral argument, the district court granted partial
summary judgment for Mrs. Montgomery, holding that “when an execution is
postponed in light of a stay, the governing regulation, 28 C.F.R. § 26.3(a), prevents
the Director from setting a new execution date until after the stay is lifted.” Pet.
App. 5a. As the court reasoned, when a regulation “‘limits a thing to be done in a
particular mode, it includes a negative of any other mode.’” Pet. App. 25a (quoting
Christensen v. Harris Cty., 529 U.S. 576, 583 (2000)). Here, “the ‘thing to be done’ is
rescheduling after an execution date lapses by reason of a stay, and the ‘particular
mode’ is ‘promptly … when the stay is lifted,’” meaning that rescheduling an
execution during a stay is precluded. Pet. App. 25a.

4

The court considered and rejected the Government’s argument that the
regulation was not triggered because, at the time they set a new execution date,
Mrs. Montgomery’s original date had not yet passed. “[T]he phrase ‘date designated
for execution,’” the court reasoned, “refers to the date of execution subject to the
Court’s stay, not whatever date the Director subsequently sets.” Pet. App. 29a.
Indeed, the Government “never suggest[ed]—nor could they suggest—that the
December 8, 2020 execution date would have passed had the Court not issued its
stay or that the date passed for some other ‘reason.’” Pet. App. 29a.
Next, the court held that the Government’s contrary interpretation was not
entitled to deference under Auer v. Robbins, 519 U.S. 452 (1997), because the
regulation is unambiguous and the Government advanced only “post-hoc
rationalizations” to support its position.

Pet. App. 30a-34a.

The court also

concluded that the Government’s violation of the regulation caused Mrs.
Montgomery prejudice sufficient to sustain her APA claim, by depriving her of time
to seek legal relief, including through clemency, and to prepare for her death. Pet.
App. 35a.

Accordingly, the court vacated the January 12 execution date—the

“‘default remedy’ under the APA.” Pet. App. 34a-36a.
On December 28, the Government filed a notice of appeal and moved for a
stay pending appeal in the district court.

The district court denied the

Government’s request, finding that it satisfied none of the stay factors, and
observing that the execution could be scheduled for shortly after the unlawfully
designated date. Pet. App. 41a-44a (discussing 28 C.F.R. § 26.4).

5

The Government then moved the D.C. Circuit for a stay pending appeal or
vacatur of the district court’s opinion. On January 1, 2021, a panel of the D.C.
Circuit construed the Government’s motion as one “for summary reversal,”
concluded that the merits were “so clear as to warrant summary action,” and
summarily reversed the district court’s ruling. Pet. App. 1a. The panel’s reasoning
was contained in a single sentence: § 26.3(a)(1) “did not prohibit the Director from
making that designation [of a new execution date on November 23] … because, at
that time, the ‘date designated for execution’ had not yet ‘passe[d].’” Pet. App. 1a2a.
On January 5, the D.C. Circuit denied Mrs. Montgomery’s request for
rehearing en banc.1 On January 7, D.C. Circuit denied Mrs. Montgomery’s request
for a stay pending the disposition of a petition for writ of certiorari.
REASONS FOR GRANTING THE STAY
Under Barefoot v. Estelle, 463 U.S. 880 (1983), a stay of execution is
warranted where there are “substantial grounds upon which relief might be
granted.” Id. at 895. In determining whether to grant a stay, the Court considers
whether there is: (1) “a reasonable probability that four Members of the Court
would consider the underlying issue sufficiently meritorious for the grant of
certiorari or the notation of probable jurisdiction”; (2) “a significant possibility of

Circuit Judges Garland and Pillard did not participate in consideration of the
petition for rehearing en banc. App. 45a.
1

6

reversal of the lower court’s decision”; and (3) “a likelihood that irreparable harm
will result if the execution is not stayed.” Id. (internal quotation marks omitted).
Here, at least four Justices will likely vote to grant certiorari, and at least
five Justices are likely to ultimately reverse, with respect to two independent
questions: (1) whether 28 C.F.R. § 26.3(a)(1) permits the Director to designate a new
execution while the execution is stayed; and (2) whether summary reversal is
available for issues of first impression. Further, if Mrs. Montgomery’s execution is
not stayed pending the Court’s review of these questions, she will suffer irreparable
harm.
I.

The Court Of Appeals’ Interpretation Of § 26.3(a)(1) Is Worthy
Of This Court’s Review And Likely To Be Reversed
The D.C. Circuit held that the Director may designate a new execution date

during the pendency of a stay, notwithstanding the plain language of § 26.3(a)(1).
The Court is likely to grant certiorari and reverse because the panel’s conclusion
contradicts the regulation’s unambiguous text, conflicts with the settled principle
that a stay of execution temporarily suspends the Government’s authority to
designate a new execution date, and is inconsistent with this Court’s precedent. See
Sup. Ct. R. 10(c).
1.

Section 26.3(a)(1) provides that “[i]f the date designated for execution

passes by reason of a stay of execution, then a new date shall be designated
promptly by the Director of the Federal Bureau of Prisons when the stay is lifted.”
28 C.F.R. § 26.3(a)(1) (emphases added).

The regulation on its face directs the

Director—using the mandatory term “shall”—to designate a new execution date

7

only once “the stay is lifted.” The regulation is unambiguous; the Court should
therefore presume it “says … what it means and means … what it says.” Henson v.
Santander Consumer USA Inc., 137 S. Ct. 1718, 1725 (2017) (quoting Dodd v.
United States, 545 U.S. 353, 357 (2005)).
Basic “rules of grammar” confirm this reading of § 26.3(a)(1).

Nielsen v.

Preap, 139 S. Ct. 954, 965 (2019). “[W]hen the stay is lifted” is an adverbial clause
and so necessarily modifies the verb “designated.”

See id. at 964.

Moreover,

“ordinarily, and within reason, modifiers and qualifying phrases attach to the terms
that are nearest.”

Grecian Magnesite Mining, Indus. & Shipping Co., SA v.

Comm’r, 926 F.3d 819, 824 (D.C. Cir. 2019). Thus, “when the stay is lifted” should
be read to modify “designate[]”—the “nearest possible referent.” Id.; see also, e.g.,
Lockhart v. United States, 136 S. Ct. 958, 962 (2016) (applying the “rule of the last
antecedent”) (quotation omitted). The “new date shall be designated,” then, only
“when the stay is lifted.”
Common canons of construction further support this interpretation. First,
when a statute or regulation “limits a thing to be done in a particular mode, it
includes a negative of any other mode.”

Christensen, 529 U.S. at 583 (quoting

Raleigh & Gaston R.R. Co. v. Reid, 80 U.S. (13 Wall.) 269, 270 (1871)); see also 2A
Sutherland, Statutes and Statutory Construction § 47.23 (Norman J. Singer ed., 7th
ed. 2020).

As the district court explained, “[h]ere, the ‘thing to be done’ is

rescheduling after an execution date lapses by reason of a stay, and the ‘particular
mode’ is ‘promptly … when the stay is lifted.’” Pet. App. 25a. By specifying how

8

and when an execution date “shall” be rescheduled, the regulation necessarily
implies that the Director may not designate a new date in other ways, at other
times.
Second, when a “general permission … is contradicted by a specific
prohibition,” the interpretive question is “eas[y] to deal with”: “the specific provision
prevails.” A. Scalia & B. Garner, Reading Law: The Interpretation of Legal Texts
183 (1st ed. 2012); see, e.g., RadLAX Gateway Hotel, LLC v. Amalgamated Bank,
566 U.S. 639, 645 (2012) (“[T]he specific provision is construed as an exception to
the general one.”). Here, when it comes to rescheduling an execution date that
“passes by reason of a stay,” the specific limits set out in § 26.3(a)(1) apply—and the
Director may not rely on his general power to designate an execution date in other
circumstances.
2. The meaning of § 26.3(a)(1) is, on its face, clear. But when combined with
the background rule that a stay of execution suspends the Government’s authority
to designate a new execution date, the point is scarcely contestable. The panel
decision not only contravenes well-established interpretive canons, it also erodes a
fundamental principle—embodied in judicial authority and the Government’s past
practice—that the Government may not set a new execution date during the
pendency of a stay.
a.

In commanding that the Director designate a new date only upon

expiration of a stay, federal regulations simply make explicit what is already
implicit in a stay of execution. A stay of execution—like any stay—“temporarily

9

suspend[s]” the Government’s “authority to act.” Nken v. Holder, 556 U.S. 418, 42829 (2009). As a result, a stay of execution temporarily sets aside the Government’s
authority to designate a new execution date during the pendency of a stay. All
relevant judicial authority, the Government’s own past practice, and its prior
interpretations have all recognized as much, adhering to the foundational principle
that the Government cannot schedule a new execution date during a pending stay.
First, every court to consider the issue has concluded that a stay of execution
temporarily suspends the Government’s authority to designate a new execution
date.

The Eighth Circuit, for example, has held that when “an order of court

staying [an] execution is in full force and effect,” the Government may not “resume
any preparations for [the] execution” until the “stay of execution [is] finally dissolved.” Smith v. Armontrout, 825 F.2d 182, 184 (8th Cir. 1987). The Nebraska
Supreme Court has noted that such preparations “clearly” include the “setting of
execution dates in anticipation of the termination of a stay.” State v. Joubert, 518
N.W.2d 887, 898 (Neb. 1994); see also Smith v. State, 145 So. 2d 688, 690 (Miss.
1962) (federal stay of execution “precludes” request “that a new date be set for the
execution of the death sentence”).
Second, the Government has consistently adhered to this view in setting
other federal executions. Dating back to at least 1830, the Executive Branch has
“determined to leave the execution of sentences of the law in all cases to the
direction of the courts, in full confidence that they will give a reasonable time for
the exercise of executive clemency in cases where it ought to be interposed.” Death

10

Warrants, 2 Op. Att’y Gen. 344, 345 (1830), 1830 WL 856. The Government has,
until now, consistently respected this judicial role: For every execution scheduled
since the Government resumed capital punishment in 2019, when the prisoner has
obtained a stay of execution, the Government has waited until the expiration of the
stay to set a new execution date.

Indeed, Mrs. Montgomery’s case is the only

instance we could find since the regulations went into effect in 1993 in which the
Government has designated a new execution date while a court’s stay of execution
was in place.

See Declaration of Zohra Ahmed in Support of Plaintiff Lisa

Montgomery’s Motion for Partial Summary Judgment, Ex. 1, Montgomery v. Barr et
al., No. 1:20-cv-03261 (D.D.C. Dec. 15, 2020).
Third, the Government’s own written interpretations are consistent with this
understanding.

The Government explicitly acknowledged, in promulgating the

subject regulations in 1993, that its authority to set execution dates derives from
that of the courts. See Implementation of Death Sentences in Federal Cases, 58.
Fed. Reg. 4,898, 4,899 (Jan. 19, 1993) (“The Department is authorized to rely on the
authority of the federal courts, acting pursuant to the All Writs Act, 28 U.S.C.
[§] 1651(a), to order that … sentences be implemented.”). Section 26.3 extends that
authority to the Director under certain circumstances, subject to a court’s superior
authority to order otherwise. See 28 C.F.R. § 26.3(a). The Government’s description
in the promulgating commentary of § 26.3’s purpose makes plain its understanding
that when a court has issued a stay, the Government will forbear action in
furtherance of the execution. The Government explained that vesting the Director

11

with the power to designate an execution date “will obviate the practice, which is a
pointless source of delay in state cases, of seeking a new execution date from the
sentencing court each time a higher court lifts a stay of execution that caused an
earlier execution date to pass.” Notice of Proposed Rulemaking, Implementation of
Death Sentences in Federal Cases, 57 Fed. Reg. 56,536, 56,536 (Nov. 30, 1992). The
implication of that statement is that, when § 26.3 was written, the Government
understood that it could seek a “new execution date” only after a “court lifts a stay
of execution.” Id. The regulations do not break with the background principle that
a judicial stay suspends the Executive’s authority to act; they reaffirm it, by stating
that the Director would have the power to designate a new date “when the stay is
lifted.” Id. Nothing in those regulations even hints that the Government thought
the Director would be permitted to reschedule an execution while a stay remained
in effect.

See Meyer v. Holley, 537 U.S. 280, 287 (2003) (when a text “has not

expressed a contrary intent, the Court has drawn the inference that it intended
ordinary rules to apply”).
This understanding has continued through the years: The Government’s
authority to schedule executions yields to the power of the Judicial Branch over the
same matter. As the Government explained when promulgating amendments to
related regulations, “Section 26.3(a)’s prefatory language … authoriz[es] BOP’s
Director to set an execution date and time ‘[e]xcept to the extent a court orders
otherwise,’” and “nothing” in the regulations “alters the courts’ power to set aside or
postpone execution dates pursuant to their authority to issue stays and

12

injunctions.” Manner of Federal Executions, 85 Fed. Reg. 75,846-01, 75,850 (Nov.
27, 2020).
Similarly, the Government’s lethal-injection execution protocols, adopted in
2004, and revised in 2019 and 2020, have always explained that “[i]f the date
designated passes by reason of a stay of execution, then a new date will be promptly
designated by the Director of the BOP when the stay is lifted.”

Administrative

Record at 53, 111, 165, Montgomery v. Barr et al., No. 1:20-cv-03261 (D.D.C. Dec.
13, 2020) (emphasis added).
And last, the Government has described § 26.3, in at least one prior court
filing, as specifying that the Government’s authority to reschedule an execution
arises after a stay is lifted. See, e.g., Brief for the United States in Opp’n to Appl.
for Stay of Executions and to Pet. for Cert., O’Keefe v. Barr, Nos. 20A11, 20-23, 2020
WL 4015846 at *21 (July, 2020) (explaining that the “execution date was stayed
until June 12, 2020,” and that “once the stay was lifted, BOP promptly re-scheduled
the executions, consistent with the applicable regulation” (emphases added) (citing
28 C.F.R. § 26.3(a)(1))).
The Government has never cited a single authority, in case law or otherwise,
suggesting it may designate a new execution date during a stay. Every available
authority contemplates, to the contrary, that the Director will designate a new
execution date only after a court’s stay has expired, just as the plain text of the
regulation commands. Construing the regulation to permit the Director to act de-

13

spite the existence of a stay thus conflicts with the long-recognized allocation of
authority between the Judiciary and the Executive Branch.
b. The panel’s ruling is the first ever to depart from this understanding and
approve the scheduling of an execution during a stay.

The novelty of the rule

created below confirms its error.
This Court has long cautioned against interpretations that cast aside
background norms, emphasizing that legal rules “are to be read with a presumption
favoring the retention of long-established and familiar principles.” Isbrandtsen Co.
v. Johnson, 343 U.S. 779, 783, (1952).

The rationale for that presumption is

straightforward: Absent evidence to the contrary, courts can fairly assume that
laws are enacted against the background of established principles and with an
intention to preserve them. See Neder v. United States, 527 U.S. 1, 21-22 (1999) (“It
is a well-established rule of construction that ‘[w]here Congress uses terms that
have accumulated settled meaning under ... the common law, a court must infer,
unless the statute otherwise dictates, that Congress means to incorporate the
established meaning of these terms.’” (quoting Nationwide Mut. Ins. Co. v. Darden,
503 U.S. 318, 322 (1992)) (brackets and alteration in Neder)); see also, e.g., Comcast
Corp. v. Nat’l Ass’n of African American-Owned Media, 140 S. Ct. 1009, 1016 (2020);
Standard Oil Co. of N.J. v. United States, 221 U.S. 1, 59 (1911).
Regulatory “language cannot be considered in a vacuum.”

E.g., Davis v.

Mich. Dep’t of Treasury, 489 U.S. 803, 809 (1989). There is no indication that the
Attorney General sought to jettison the usual rule here. As explained (supra 7-9),

14

every interpretive tool confirms that the Director must wait until the stay is lifted
before designating a new date. The regulation does not explicitly authorize the
Director to reschedule an execution despite an order by an Article III court staying
that execution—and the Attorney General did not hide that authority in a
mousehole.
3. Without the regulatory text, structure, or any prior authority on its side,
the panel’s holding rests entirely on the conclusion that the original “‘date
designated for execution’ had not yet ‘passe[d]’” when the Director rescheduled Mrs.
Montgomery’s execution for January 12. Pet. App. 2a. That interpretation cannot
be squared with the regulation’s text or common sense. The regulation refers to the
execution date subject to the stay. That date passes by reason of a stay regardless
of whether the Director purports to schedule a new date beforehand. When a stay
of execution renders an execution date inoperable, the “date designated for
execution passes by reason of a stay of execution.” 28 C.F.R. § 26.3(a)(1).
The panel holding implausibly suggests that the date that was stayed does
not pass “by reason of a stay” so long as the Director designates a subsequent date
in view of the stay. That is like saying a barbeque was rescheduled to avoid rain in
the forecast, but not because of rain. Mrs. Montgomery’s reading “makes sense of
the overall provision, which, in the first sentence instructs the Director to set a date
for execution, and in the second, permits the Director to set a subsequent date
‘when the stay is lifted.” Pet. App. 29a. The panel’s reading of the second sentence,
by contrast, deprives half of the first clause of meaning: It asks whether the initial

15

“date designated for execution passe[d],” but not (as the rest of the clause demands)
whether the “reason” the initial execution date could not go forward was a stay. 28
C.F.R. § 26.3(a)(1). As the district court found, a date designated for execution
passes “by reason of a stay” regardless whether the Government purports to
designate a second date beforehand. Pet. App. 28a-29a.
Furthermore, under the panel’s contrary construction, the Director would
have unfettered discretion to reschedule an execution date whenever he chooses,
even during a stay, up until the moment of the original date.

Such a reading

renders the phrase “when the stay is lifted” superfluous. See Nat’l Ass’n of Home
Builders v. Defs. of Wildlife, 551 U.S. 644, 668-69 (2007) (rejecting regulatory
interpretation that rendered language “mere surplusage”).

If the Director can

reschedule an execution date notwithstanding a stay, there is no need for the
regulation to specify that a new date be designated only once “the stay is lifted.” 28
C.F.R. § 26.3(a)(1).

The Government’s reading is also illogical.

Under its

interpretation, if a stay is in effect, then up until the date passes, the Director can
reschedule an execution date whenever he chooses; once the date passes, however,
the Director’s authority is frozen until the stay is lifted. That makes no sense.
Reading § 26.3(a)(1) as the district court did, to preclude the designation of a
new execution date when a stay is in place, comports with the regulation’s purpose
of “ensur[ing] [the] orderly implementation of death sentences.” 57 Fed. Reg. at
56,536. Section 26.3—together with § 26.4, which specifies that a prisoner must
receive 20 days’ notice of a new execution date after a lengthy postponement—

16

ensures that a substantial stay of execution will be followed by a definite period
before execution.

That 20-day period gives an individual facing execution the

opportunity to consider and pursue appropriate then-ripe legal remedies in the
wake of a decision dissolving a stay and ensures adequate time for appellate review.
Under the panel’s view, in contrast, the Government could reschedule an
execution for the minute after a lengthy stay is vacated. That rule would frustrate
judicial review of orders vacating a stay and impede the ability to pursue legal
remedies after a stay is vacated. It would also generate efforts to pursue emergency
relief and might promote otherwise-avoidable interlocutory appeals to forestall the
possibility that a decision vacating a stay will lead to an immediate execution—
chaos that the regulations on their own terms seek to avoid, by requiring the 20-day
period between the expiration of the lengthy stay and the new execution date. 28
C.F.R. § 26.4.
4.

The Director’s ability to designate a new execution date during the

pendency of a stay is a question of exceptional importance, not only to Mrs.
Montgomery, but also to the more than 50 prisoners currently on federal death
row.2 As explained, the purpose of the federal regulations is to ensure the “orderly
implementation of death sentences.”

57 Fed. Reg. at 56,536.

Section 26.3 and

§ 26.4 work together to advance that goal by guaranteeing that a substantial stay is

Death Penalty Information Center, List of Federal Death-Row Prisoners,
https://deathpenaltyinfo.org/state-and-federal-info/federal-death-penalty/list-offederal-death-row-prisoners (last visited Jan. 9, 2021).
2

17

followed by a definite 20-day period before execution—a period of time that allows
executive and judicial officers to carry out their own responsibilities, gives an
individual facing execution the opportunity to consider and pursue appropriate legal
remedies in the wake of a decision dissolving a stay, and ensures that appellate
courts have adequate time for meaningful review.
If § 26.3(a)(1) does not restrict the Government’s ability to set an execution
date for any of these prisoners while a stay is lawfully in effect, federal inmates will
be denied time to which they are legally entitled to submit clemency petitions and
have those petitions duly considered. Federal law recognizes that prisoners have a
legally cognizable interest in “meaningful access” to clemency proceedings—the
“‘fail-safe’ of our [criminal] justice system.” Harbison v. Bell, 556 U.S. 180, 194
(2009). Further, prisoners condemned to death will be deprived of guidance on the
timing of their executions, meaning they and their families will not have the clarity
needed to “prepare, mentally and spiritually, for their death[s].”
Wainwright, 477 U.S. 399, 421 (1986) (Powell, J., concurring).

Ford v.

The execution

regulations themselves recognize the importance of having such time to prepare.
See 57 Fed. Reg. at 56,536 (regulations “enable the prisoner and his immediate
family to prepare themselves for the execution”).
5.

Though there is no circuit split on the specific interpretation of

§ 26.3(a)(1), the decision below is in grave tension with prior decisions. This Court
routinely grants certiorari to address regulatory and statutory questions of
“unusual importance,” even in the absence of a conflict. Massachusetts v. E.P.A.,

18

549 U.S. 497, 506 (2007). Indeed, just this Term, the Government sought—and
obtained—a writ of certiorari on a case that raised only claims of statutory
interpretation and did not involve a circuit split. See Trump v. Sierra Club, No. 20138, 2020 WL 6121565, at *1 (U.S. Oct. 19, 2020); see also, e.g., Home Depot U.S.A.,
Inc. v. Jackson, 139 S. Ct. 1743, 1750 (2019) (interpreting the Class Action Fairness
Act without circuit split); N.L.R.B. v. SW Gen., Inc., 137 S. Ct. 929, 938 (2017)
(interpreting Federal Vacancies Reform Act of 1998 without circuit split); Norton v.
S. Utah Wilderness All., 542 U.S. 55, 57–58 (2004) (granting certiorari to decide
whether ability to “compel agency action unlawfully withheld or unreasonably
delayed” under the APA extended to review of Bureau of Land Management’s
statutory obligations without mention of circuit split (quotations omitted)); Public
Lands Council v. Babbitt, 529 U.S. 728 (2000) (interpreting Taylor Grazing Act and
implementing regulations without circuit split).
II.

The Court Of Appeals’ Use Of Summary Reversal On An Issue
Of First Impression Is Worthy Of Review And Is Likely To Be
Reversed
The Court is also likely to grant certiorari and reverse because the D.C.

Circuits use of summary reversal in this case is a marked departure from the usual
conduct of judicial proceedings and creates the possibility of confusion for the lower
courts over when summary reversal is appropriate. See Sup. Ct. R. 10(a).
1.

The practice of this Court and of every court of appeals is to give

considered attention to novel questions of first impression.

19

This Court’s own summary reversal precedent makes clear that “summary
reversal does not decide any new or unanswered question of law, but simply corrects
a lower court’s demonstrably erroneous application of federal law.” Maryland v.
Dyson, 527 U.S. 465, 467 n.1 (1999); see also CSX Transp., Inc. v. Hensley, 556 U.S.
838, 840 (2009) (summarily reversing where court of appeals committed “clear
error” when applying a prior decision of the Supreme Court); Allen v. Siebert, 552
U.S. 3, 7 (2007) (summarily reversing where prior decision of Supreme Court
“preclude[d]” the “Court of Appeals’ approach”); Gonzales v. Thomas, 547 U.S. 183,
185 (2006) (summarily reversing because error was “obvious” in light of binding
precedent); Schweiker v. Hansen, 450 U.S. 785, 791 (1981) (Marshall, J., dissenting)
(summary disposition “usually reserved by th[e] Court for situations in which the
law is settled and stable, the facts are not in dispute, and the decision below is
clearly in error”).
Decisions and rules of courts of appeals likewise state that summary reversal
is not available on a new or unanswered question of law. See, e.g., Dunn v. Wells
Fargo Bank, N.A., No. 20-1080, 2020 WL 1066008, at *1 (7th Cir. Feb. 25, 2020)
(internal quotation marks omitted) (observing that summary disposition is
appropriate “when the position of one party is so clearly correct as a matter of law
that no substantial question regarding the outcome of the appeal exists”); Blanco de
Belbruno v. Ashcroft, 362 F.3d 272, 281 (4th Cir. 2004) (noting that summary
disposition is “used by appellate courts to resolve cases which do not raise novel or
complex questions”); Joshua v. United States, 17 F.3d 378, 380 (Fed. Cir. 1994)

20

(summary disposition appropriate “when the position of one party is so clearly
correct as a matter of law that no substantial question regarding the outcome of the
appeal exists”); Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir.
1969) (summary disposition appropriate where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to
the outcome of the case,” or where “the appeal is frivolous”); 1st Cir. Handbook R.
27.0 (“[T]he court may dismiss the appeal or other request for relief or affirm and
enforce the judgment or order below if the court lacks jurisdiction, or if it shall
clearly appear that no substantial question is presented. In case of obvious error
the court may, similarly, reverse.”); 3d Cir. R. 27.4 (“A party may move for summary
action … reversing a judgment, decree or order, alleging that no substantial
question is presented or that subsequent precedent or a change in circumstances
warrants such action.”); 10th Cir. R. 27.3(A)(1)(b) (“A party may file only the
following dispositive motions … a motion for summary disposition because of a
supervening change of law or mootness.”).
Of course, exigent issues arise that require the immediate attention of the
courts. This Court’s own efforts to handle legal questions relating to the country’s
public health emergency are but one example.

But this was no emergency.

Summary reversal is inappropriate when the circumstances permit reasoned
consideration, as they did here:

Mrs. Montgomery asserted her claim promptly

after her execution was improperly designated; the Government appealed nearly
three weeks before the date it sought to secure; and a court may always ensure that

21

important issues receive due deliberation by using a stay to preserve the status quo,
as this Court frequently does. See, e.g., Barr v. E. Bay Sanctuary Covenant, 140 S.
Ct. 3 (2019); Trump v. Sierra Club, et al., 140 S. Ct. 1 (2019).

There was no

practical impediment to plenary consideration of the opinion below and the claim it
vindicated.
2.

The traditional standards delimiting summary reversal serve an

important purpose in our judicial system. Summary dispositions are fundamentally
unfair to the litigants, depriving them of the opportunity for full briefing and
argument.

See Presley v. Georgia, 558 U.S. 209, 217-18 (2010) (Thomas, J.,

dissenting) (“I am unwilling to decide this important question summarily without
the benefit of full briefing and argument.”); Mireles v. Waco, 502 U.S. 9, 15 (1991)
(Scalia, J., dissenting) (“I am sure that, if we are to decide this case, we should not
do so without briefing and argument.”); Montana v. Hall, 481 U.S. 400, 405-06
(1987) (Marshall, J., dissenting) (summary disposition “deprive[s] the litigants of a
fair opportunity to be heard on the merits”). Summary reversal in particular fails to
“accord proper respect for the judgments of the lower courts,” when “[t]he judges
below have had the benefit of full briefing on the merits and review of the entire
record” but the court of appeals has not. Hall, 481 U.S. at 408-409 (Marshall, J.,
dissenting). Summary disposition likewise deprives courts of a decisional process
that is designed to enable judges to reach the correct outcome across cases.

Cf.

Fed. R. Pet. App. P. 1, Advisory Committee Note (1979 Amendment) (“Federal Rules
of Appellate Procedure were designed as an integrated set of rules to be followed in

22

appeals to the courts of appeals, covering all steps in the appellate process.”). This
Court has itself recently recognized the importance of procedural regularity to the
integrity and proper functioning of our judicial system. Cf. United States v.
Sineneng-Smith, 140 S. Ct. 1575, 1581 (2020) (reversing based on Court of Appeals’
procedural error of appointing three amici to brief and argue legal issues not raised
by the parties).
3.

The panel’s decision conflicts with this well-settled precedent and

threatens to erode the ordinary procedures of appellate review.
Here, the question before the court of appeals concerning the construction of
§ 26.3(a) was concededly a novel one, i.e., a “new or unanswered question of law.”
See Resp. to Pet. for Reh’g at 8, Montgomery v. Rosen, et al., No. 20-5379 (D.C. Cir.
Jan 4, 2021). Indeed, the decision below was the first ever to address the meaning
of § 26.3(a)(1) and determine that an execution may be scheduled during a stay.
The decision below thus necessarily did not depend on a “demonstrably erroneous
application of federal law,” Dyson, 527 U.S. at 467 n.1, that warrants summary
reversal. Rather, all prior judicial authority concerning the broader question of
whether the Government may schedule an execution during a stay indicated that
the district court’s decision was a correct application of law.
In summarily reversing the district court’s well-reasoned, careful opinion on
a matter of first impression, the panel “has so far departed from the accepted and
usual course of judicial proceedings … as to call for an exercise of this Court’s
supervisory power.” Sup. Ct. R. 10(a). Under the approach taken by the panel, any

23

case on which the panel disagrees with the merits can be summarily reversed
without full briefing, thereby subverting the regular appellate process, inevitably
reaching wrong, hasty results, and contradicting this Court’s own practice
regarding summary dispositions.

The Court “has a significant interest in

supervising the administration of the judicial system” and the “Court’s interest in
ensuring compliance with proper rules of judicial administration is particularly
acute when those rules relate to the integrity of judicial processes.” Hollingsworth
v. Perry, 558 U.S. 183, 196 (2010).
Members of this Court have recognized that its own use of summary
disposition amounts to “bitter medicine,” Spears v. United States, 555 U.S. 261, 268
(2009) (Roberts, C.J., dissenting), to be dispensed infrequently, but this Court has
provided only limited guidance to the lower courts regarding the standard
governing the availability of summary reversals.

This case provides the ideal

opportunity for the Court to provide that guidance.
III.

Mrs. Montgomery Will Suffer Irreparable Harm Absent A Stay
Mrs. Montgomery will plainly suffer irreparable harm unless this Court stays

her execution pending disposition of her petition for certiorari. Absent a stay, Mrs.
Montgomery will be unlawfully executed and, as the Supreme Court has made
clear, an “execution is the most irremediable and unfathomable of penalties.” Ford,
477 U.S. at 411 (plurality op.).
Further, unless her execution is stayed, Mrs. Montgomery will have
“diminish[ed] … time” “‘to seek legal relief from her death sentence,’ including

24

through the clemency process”—time to which she is lawfully entitled. Pet. App. 36;
see In re Fed. Bureau of Prisons Execution Protocol Cases, No. 20-5361, Order at 5
(D.C. Cir. Dec. 10, 2020) (Wilkins, J., dissenting) (“[D]enial of time for … further
consideration” of a “clemency petition[]” “is itself irreparable harm.”); see also
Wainwright v. Booker, 473 U.S. 935, 935 n.1 (1985) (Powell, J., concurring)
(“irreparable harm … necessarily present in capital cases”). Absent a stay, Mrs.
Montgomery will also be deprived of time to “prepare, mentally and spiritually, for
[her] death,” Ford, 477 U.S. at 421 (Powell, J. concurring); see also 57 Fed. Reg. at
56,536 (regulations “enable the prisoner and his immediate family to prepare
themselves for the execution”).
CONCLUSION AND PRAYER FOR RELIEF
Ms. Montgomery respectfully requests that the Court grant this application,
stay her execution, and grant any other relief that the Court may find just.
Respectfully submitted this 9th day of January, 2021,

25

Kelley J. Henry
CAPITAL HABEAS UNIT
OFFICE OF FEDERAL PUBLIC DEFENDER,
M.D. TENN.
810 Broadway, Suite 200
Nashville, TN 37203
(615) 736-5047
kelley_henry@fd.org

Meaghan VerGow
Counsel of Record
Anna O. Mohan
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5504
mvergow@omm.com

26

